TABLE OF CONTENTS

Introduction .......................................................................................1

         Background .................................................................................... 1
         Objective and Methodology............................................................ 2

Results in Brief .................................................................................3

Leadership and Oversight...........................................................5

         Communication .............................................................................. 5
         Quality Control .............................................................................. 7
         Employee Advancement and Recognition..................................... 8

Employee Accountability...........................................................11

         Professional Responsibility Unit ................................................. 11
         Disciplinary Actions..................................................................... 13

Property Accountability ............................................................15

         Firearms ....................................................................................... 15
         Converting Evidence to Property ................................................ 18

Results of Employee Survey .....................................................19

Recommendations .........................................................................20

Appendices ........................................................................................21

         Appendix 1- FWS-OLE Organization Chart............................... 21
         Appendix 2- FWS-OLE Employee Survey National Results...... 22
         Appendix 3- FWS-OLE Employee Survey Regional Results...... 23
INTRODUCTION
This report presents the result of our assessment of the U.S. Fish and
Wildlife Service (FWS or Service) Office of Law Enforcement (OLE).
This assessment is part of ongoing efforts by the Office of Inspector
General (OIG) to examine Department of the Interior (DOI or
Department) law enforcement programs.

In 2001, at the request of the Secretary, we conducted a Department-
wide review of law enforcement activities. In January 2002, we issued
a report providing recommendations to improve leadership,
organization, control, and accountability of Department law
enforcement programs. In response to our report, in July 2002, the
Secretary issued a series of directives to reform DOI law enforcement
based on our recommendations. Since 2002, FWS-OLE has put forth
efforts to implement the mandated law enforcement reforms. In fact,
in our most recent progress review, we found that FWS-OLE had
completed implementation of all but one of the Secretary’s directives.

We began this assessment in May 2006 to conduct a more in-depth
review of FWS-OLE’s management and operations. We would like to
acknowledge the cooperation of Department officials, FWS
management, and the many employees we interviewed throughout this
assessment. We witnessed the passion and dedication that FWS-OLE
employees have for their profession and the FWS mission. Many FWS-
OLE employees we spoke with were optimistic about what this report
could do for the future of their program.

Background

The Service has a mission “to conserve, protect and enhance fish,
wildlife, and plants and their habitats for the continuing benefit of the
American people.” FWS-OLE contributes to this mission through the
enforcement of federal laws that protect wildlife resources, often
working in cooperation with international, federal, state, and tribal
agencies.

FWS-OLE conducts investigations, focusing on potentially devastating
threats to wildlife, including illegal trade, unlawful commercial
exploitation, habitat destruction, and environmental hazards. FWS-
OLE also regulates wildlife trade through inspections, ensuring
compliance with applicable laws and working to detect illegal trade.

FWS-OLE is comprised of approximately 208 special agents, 111
wildlife inspectors, and 166 support staff located throughout the
country. Most FWS-OLE employees work in the field and report
                                 1
through seven regional
offices headed by a Regional
Special Agent in Charge
(SAC). FWS-OLE’s
headquarters office provides
direction and oversight for
field operations, including
issuing policy and guidance,
managing budget resources,
offering training
opportunities, overseeing professional integrity, and providing
technical expertise and administrative support (See Appendix 1 for an
FWS-OLE organization chart).

Objective and Methodology

The objective of our assessment was to evaluate the overall
accountability of the FWS-OLE program. We reviewed many aspects
of the law enforcement program, including management, policies,
partnerships with other agencies, funding, internal affairs, quality
control inspections, employee conduct, property, evidence, and
training. Our assessment focused on law enforcement activities as
they relate to the FWS special agent program. The wildlife inspector
program was not included in the scope of our review.

To accomplish our objective, we visited five of the seven regional law
enforcement offices and headquarters. We also visited 9 Resident
Agent-in-Charge (RAC) offices and 13 field offices, along with FWS-
OLE training instructors at the Federal Law Enforcement Training
Center. Throughout these site visits, we reviewed hundreds of
program documents and conducted more than 110 interviews with
officials of the Department and FWS, as well as federal and state
partners.

We contracted with the Center for Ethical Business Cultures which,
together with its partner Kenexa, developed and administered an
independent survey of FWS-OLE employees to provide us with an in-
depth appraisal of FWS-OLE’s ethical culture (See Appendices 2 and 3
for survey results). Employees were also afforded the opportunity to
provide us with their comments, concerns, and suggestions through
electronic mail. We conducted our assessment in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for
Inspections.




                                2
RESULTS IN BRIEF
The Service’s law enforcement program has gone through several
changes over the past 5 years. With the issuance of the Secretary’s
directives for law enforcement reform in 2002, FWS-OLE has taken
steps to improve its organizational efficiency, including the
implementation of direct-line authority and the establishment of an
internal affairs unit. FWS-OLE has also published a strategic plan
identifying its mission, goals, and objectives, and has created
performance measures to assess program effectiveness.

Stakeholders that work in cooperation with FWS-OLE are pleased
with its performance. FWS regional managers we interviewed stated
that despite organizational changes, FWS-OLE continues to work
collaboratively with regional offices to fulfill the FWS mission. In
addition, all of the federal and state law enforcement partners we
spoke with described having a good working relationship with FWS-
OLE.

With the implementation of direct-line authority, FWS-OLE unified its
command structure, centralizing most of its administrative functions
at the headquarters level. Despite this change in structure, we found
that regions continue to operate as “seven kingdoms” with relative
autonomy from headquarters’ oversight. Many of the people we spoke
with described an environment that lacks decisive leadership from
senior management, with one interviewee stating that “the ship is
rudderless at the top.”

Our review discovered weaknesses in the core areas of leadership and
oversight, contributing to a general mistrust of senior management.
We found a lack of effective communication between FWS-OLE
headquarters and the field, which has created a perception that there
is a “wall” between management and field personnel. A lack of formal
quality control inspections has added to these communication issues.
Such inspections are not only critical in evaluating the quality of
operations, but are an important tool for information flow between
headquarters and the field.

Throughout our assessment, concerns were raised about the
organization’s culture of ethics and integrity. We also found
weaknesses in internal affairs policy, and when reviewing internal
affairs cases we discovered problems with investigative independence.
Decentralized management of disciplinary action has created
inconsistencies, resulting in agent frustration. In addition,
management has not always carried out disciplinary action in a timely
manner.
                               3
Weaknesses in controls over firearms and evidence converted to
government property puts FWS-OLE at risk of waste, loss, or
unauthorized use of this property. Most alarming was FWS-OLE’s
lack of action in following up on missing firearms. Missing firearms
pose a severe risk to the public, as they could potentially be used for
criminal activity.

The employee survey results supported our assessment findings.
Employees gave senior leadership low marks with regard to trust and
behaving in a way that is consistent with the mission. Employees were
most critical about the sharing of information at FWS-OLE. That
having been said, with an extraordinary response rate of 88 percent,
the survey demonstrated that FWS-OLE employees are highly
committed to the agency and have a strong interest in the program’s
future.




                                 4
LEADERSHIP AND OVERSIGHT

Strong leaders are essential to inspire and motivate employees to
embrace change and undertake new challenges. Conversely,
ineffective leadership can stifle growth, create frustration, and prevent
an agency from reaching its goals. At FWS-OLE, ineffective leadership
and oversight have created what some refer to as “seven kingdoms”
rather than a cohesive law enforcement organization. Although
management has effectively ensured employee awareness of the FWS-
OLE mission and goals, we found weaknesses in communication,
quality control, and employee recognition. These weaknesses have
contributed to employee frustration and ultimately a lack of trust in
senior management.

Communication

                              A lack of communication between FWS-
                              OLE senior management and field
                              personnel has significantly impacted
                              morale and trust, and caused many
                              agents to question the integrity and
                              leadership of their senior managers.
                              While senior managers have been very
                              successful in communicating FWS-OLE’s
                              mission, they have been less successful in
                              keeping field personnel informed of
                              decisions that affect their day-to-day
                              operations. This was supported in our
survey results with only a third of survey respondents agreeing that
communication is open and information is shared freely within FWS-
OLE.

Field personnel we interviewed explained that they have little or no
contact with the FWS-OLE Chief and Deputy Chief and that a
headquarters official has never visited their office. This lack of
communication was also found at the regional level. Communication
between field agents and their Regional SAC varies from region to
region and is largely dependent on the agent’s proximity to the
regional office. Many field agents told us that their SAC rarely, if ever,
visits their office. Most communications are directed through the
agent’s immediate supervisor, the RAC. While RACs frequently
communicate with field agents, we found that even some RACs seldom
visit the field offices under their jurisdiction.



                                 5
When site visits are conducted, they tend to carry a negative
connotation. We were told by some agents that they do not want their
SAC to visit because it usually means that there is something wrong.
Site visits are viewed as a reactive measure used to address a specific
problem, rather than proactive by providing information and acquiring
feedback from the field. One SAC even admitted that site visits are
only conducted when there is an issue that needs to be dealt with.
When questioned about the reason for their lack of site visits, one SAC
told us that funding is better spent on other program areas.

The seven Regional SACs meet quarterly, referred to as “the Circle of
Seven” by some field agents; the SACs seldom report the results of
these meetings back to the field. While periodic management meetings
are essential for many reasons, the necessity of FWS-OLE’s quarterly
meetings has become clouded. Without management feedback to the
field, agents have questioned the benefits of these conferences and the
resulting drain on the agency’s budget.

The void in communication was also apparent when it came to the
fundamental area of policy. We were told by the SAC responsible for
policy that the status and availability of policy is better than it has
ever been. Yet, numerous agents we spoke with and received e-mails
from expressed frustration with outdated and redundant policy. Many
stated that they have been waiting for years for a new policy manual
and are often confused by numerous policy documents, including
manual sections, Director’s Memoranda, and Chief’s Directives. The
SAC in charge of policy stated that about half of the manual is updated
and they are issuing chapters as they are completed.

The lack of communication to the field over recent disciplinary
decisions and the apparent disparity in punishment between regions
for similar infractions has affected morale agency-wide. Field
personnel have relied on rumors and half truths in forming opinions on
disciplinary actions. We understand that management is precluded
from releasing some information on personnel actions; however, they
have failed to address concerns voiced by field personnel that have
resulted from these actions. Unresolved, these issues have festered,
                                  allowing rumors to abound and
                                  polarizing field personnel who further
                                  question management. In fact, the
                                  employee survey revealed that less
                                  than half of FWS-OLE employees
                                  trust senior management. FWS-OLE
                                  management can, without discussing
                                  case specifics, communicate a message
                                  of what is acceptable and unacceptable
                                6
conduct, promoting a culture of ethics and integrity and, ultimately,
building agency morale and much needed trust in senior management.

The former Chief of FWS-OLE acknowledged that more outreach is
needed on a national level. In August 2006, the former Chief began
sending out bi-monthly e-mails to report recent organizational
developments to the field. While this is a step in the right direction,
more work needs to be done to improve trust and morale throughout
the program.

Recommendation

 1.   FWS-OLE management should develop and execute plans to
      improve communication throughout the organization. Plans
      should consider periodic site visits by all levels of management,
      methods to identify and address employee concerns, and
      centralized methods for dissemination of agency information and
      policy.

Quality Control

FWS-OLE has not conducted formal quality control inspections since
2001. Prior to 2001, routine inspections of FWS-OLE offices were
conducted by the Training and Inspection Branch. We were told that
inspections stopped occurring with the implementation of direct-line
authority. FWS-OLE believed that changes in its reporting structure
required that modifications be made to the inspection process.

FWS-OLE has drafted policy that modifies the inspection process and
creates standards for conducting inspections. FWS-OLE is waiting for
this policy to be finalized before beginning inspections; management
was unable to provide us with an exact issue date for this policy. Both
the former Chief and current Acting Chief attributed delays to the fact
that the SAC position in charge of Training and Inspections is
currently vacant. However, we were told that this position has only
been vacant since early 2006. While we were told that quality control
inspections will be performed beginning in 2007, management did not
have any detailed plans on what inspections will be initiated and/or
completed.

The importance of inspections for law enforcement agencies is clearly
defined in the Commission on Accreditation for Law Enforcement
Agencies, Inc. standards. These recognized law enforcement standards
state a formal “inspection process is an essential mechanism for
evaluating the quality of the agency’s operations; ensuring that the
agency’s goals are being pursued; identifying the need for additional
                                7
resources; and ensuring that control is maintained throughout the
agency.” Inspections further benefit the agency by providing senior
management and supervisors with a means of regularly assessing the
agency’s efficiency and effectiveness.

Recommendations

 2.   FWS-OLE should issue policy addressing quality control
      inspection standards and requirements.

 3.   FWS-OLE should conduct formal quality control inspections
      annually and devise a plan for inspections to be completed at all
      FWS-OLE locations in the next 3 years.

Employee Advancement and Recognition

                      FWS-OLE needs to improve efforts to recognize
                      those employees that demonstrate
                      organizational values. The employee survey
                      found that less than half of FWS-OLE
                      employees agree that demonstrating
                      organizational values is important in
                      determining promotions and performance
                      ratings. Even more disturbing, is that only 37
                      percent of employees agreed with the following
                      statement: “Where I work, people do not ‘get
                      ahead’ unless their behavior clearly
                      demonstrates FWS-OLE values.”

When it comes to getting ahead, what appears to dictate promotions
into FWS-OLE management positions is an unwritten requirement to
have 2 years of experience at headquarters. Many employees we spoke
with expressed frustration with this requirement, stating that SAC
and ASAC positions are often awarded to agents with little or no
supervisory experience. A former agent stated that managers “don’t
need to know how to do the job, with Washington Office time served
they are divined to lead.” A group of employees who provided us with
written comments were so discouraged with FWS-OLE’s hiring and
promotion practices, they went so far as to suggest that the OIG should
oversee the selection process for every FWS-OLE vacancy.

When asked about this unwritten requirement, the former Chief of
FWS-OLE stated that those who have served at headquarters are
much more competitive in the hiring process because of the
experiences that they receive while in Washington, D.C. While we

                               8
understand the benefit of having headquarters experience, this
experience does not always create an effective leader or manager. We
were told that supervisors receive 40 to 80 hours of supervisory
training within the first 2 years as a supervisor, and additional
supervisory training is provided at annual in-service training.
However, given the volume of comments received regarding
inexperienced managers, there appears to be a need for a more formal
leadership and management development program.

We found that FWS-OLE does not have a centralized process for
handling or funding performance awards. Instead, performance
awards are funded through each region’s operational budget. Each
SAC has the discretion to recognize employees receiving an annual
performance rating of superior (level 4) or exceptional (level 5) with a
monetary award, a quality-step increase, a time-off award, or, if they
choose, no award. While we understand the benefits of a SAC’s
discretion, there is a negative ripple effect among employees when
inconsistencies in performance awards are substantial.

We found
significant
inconsistencies in
the issuance of
performance
awards, both
among and
within regions.
Specifically, in
2005,
approximately 50
percent of all
FWS-OLE
employees who
received a
performance
rating of exceptional were located in one region with the remaining six
regions and headquarters sharing the remaining 50 percent.
Additionally, in three of the regions and at FWS-OLE headquarters,
agents with a performance rating of superior received higher monetary
awards than those employees with a performance rating of exceptional.

We also noted discrepancies between regions on the percentage of
employees receiving performance awards. In 2005, the percentage of
employees receiving performance awards ranged from 9 percent in one
region to 62 percent in another. We noted that Region 3, whose
employees received the highest percentage of performance awards, was
                                9
the most critical of FWS-OLE during our survey (See Appendix 3 for
regional survey results). We believe this demonstrates that excessive
awards do not substitute for the importance of employee trust, open
communication, and effective leadership.

Current inconsistencies in FWS-OLE performance awards may be
rectified by recent Departmental policy issued during our assessment.
This policy provides specific requirements for the issuance of monetary
awards relating to employee performance and establishes thresholds
for these awards. This policy will not, however, rectify the
inconsistencies in the number of awards provided by each region.

Recommendations

 4.   FWS-OLE should create a formal leadership and management
      development program that values both headquarters and field
      management experience.

 5.   FWS-OLE should monitor the issuance of performance awards
      to ensure consistency among regions and ensure that new
      Departmental standards are followed.




                               10
EMPLOYEE ACCOUNTABILITY

Our office has investigated several allegations of misconduct by FWS-
OLE special agents, including a cheating scandal and egregious misuse
of government property. The significance of these investigations, as
well as management’s lenient response to them, caused us to begin to
question FWS-OLE’s culture in regards to ethics and integrity.

Strengthening the professional integrity of its workforce is one of FWS-
OLE’s strategic objectives. FWS-OLE’s internal affairs component,
referred to as the Professional Responsibility Unit (PRU), is a key
factor for FWS-OLE in accomplishing this objective. While
investigating allegations of misconduct is important, ultimately
holding agents accountable for their actions is crucial in demonstrating
and protecting organizational integrity.

Professional Responsibility Unit

The PRU was established in June 2003 to
investigate allegations of misconduct by
FWS-OLE employees, as well as those in
the law enforcement chain of command in
the FWS National Wildlife Refuge
System (NWRS). Since their
establishment, the PRU has opened 30
cases involving FWS-OLE special agents.
These 30 cases, 3 of which were
investigated by the OIG, resulted from
allegations made against 28 special
agents. Allegations have been sustained
against 17 of those 28 agents (See chart
to the right for more detail).

In cases involving FWS-OLE special agents, the Chief or Deputy Chief
of FWS-OLE, in consultation with the PRU SAC, determines whether
an allegation will be investigated by the PRU or referred to the field
for investigation. When reviewing PRU case files, we found that of the
30 cases involving special agents, 11 had been referred to the field for
investigation. We believe, because of the severity of some of the
allegations, some of these cases should have been worked by the PRU
or, at a minimum, another regional office. For example, one case
involving allegations of theft of government funds was referred to the
RAC who was the immediate manager of the subject in the case. A
case with such serious allegations should not be referred to a location
where there is such a blatant conflict of interest.

                               11
While FWS-OLE does not currently have an established policy for the
PRU, draft policy does establish three categories of allegations based
on the severity. The draft policy requires all allegations of impropriety
be reported to the PRU, but the policy is not clear on who will conduct
the investigation. In fact, the draft policy defines an investigation as
“a formal review of an allegation of misconduct, usually [emphasis
added] performed by a trained investigator.” The draft policy does
require that managers receive authorization from the PRU before
undertaking investigative action on Category 1 or 2 allegations.
Authorization is not required for managers to investigate Category 3
allegations.

When asked why some cases are referred to the field for investigation,
PRU officials stated it was usually due to a lack of resources. Under
the practice of referring cases to the field, the SAC is not only
responsible for the investigation, but is also the deciding official for
any disciplinary action that may result.

The Department’s Internal Affairs Interim Policy requires that
internal affairs investigations shall be conducted in accordance with
the President’s Council on Integrity and Efficiency and Executive
Council on Integrity and Efficiency, Quality Standards for
Investigations. These standards require that investigative work must
be free from impairments to independence. Official, professional, or
personal relationships with the employee under investigation may
affect the extent and/or outcome of the investigative inquiry.

We found that a lack of resources did not only affect who investigated
allegations, but also sometimes affected how investigations were
conducted. We discovered instances when PRU agents conducted
interviews by mail rather than in person. When we asked about these
practices, we were told that there was a lack of funding for travel. The
PRU does not receive an annual budget for conducting investigations
and must rely on headquarters to allot funds for its investigations.

Recommendations

 6.   FWS-OLE should ensure all serious allegations are investigated
      by either the OIG or the PRU, or an appropriately trained and
      independent agent.

 7.   FWS-OLE should ensure that the PRU is provided with an
      annual budget to effectively plan and provide for necessary
      investigative work.

                                12
Disciplinary Action

We found disciplinary action is handled on a regional basis and not
centrally managed or tracked. When an investigation or an
administrative inquiry is completed on a special agent, findings are
provided to the agent’s manager who is responsible for determining
appropriate disciplinary action for substantiated allegations.

When determining the
appropriate disciplinary
action for an offense, each
SAC works with the human
resources and solicitor’s
offices located in the FWS
regional office. We were told
that these offices work to
ensure that disciplinary
action is consistent with
other disciplinary actions
carried out within that
regional office; however,
they do not ensure the
action is consistent among
agents within FWS-OLE.

We found one example where an employee received the mandated 30-
day suspension for misusing his/her government vehicle, while another
employee located in a different region received a 14-day suspension for
misusing his/her vehicle under more severe circumstances - driving the
government vehicle intoxicated while in possession of his/her
government firearm. We found that inconsistencies such as these have
caused resentment and frustration among other FWS-OLE agents and
impacted the trust placed on management.

We were told by other DOI law enforcement agencies, specifically the
Bureau of Land Management and the National Park Service, that they
have created centralized systems to track and compare disciplinary
actions nationwide. These systems operate with senior management
oversight.

In addition to inconsistencies in disciplinary action, we found instances
when action to resolve employee misconduct was not carried out in a
timely manner. For example, the OIG investigated allegations that an
FWS-OLE special agent, while previously employed by FWS as a

                                13
NWRS officer, authorized a volunteer to remove a government firearm
from FWS custody for the volunteer’s personal use. The investigative
findings were forwarded to FWS-OLE in January 2005, revealing
sufficient evidence to support the allegations, including an admission
by the special agent. During our review of PRU case files, we found
that no action had been taken to hold the agent accountable. We
brought this to the attention of a PRU official and in August 2006, 20
months after the OIG findings were forwarded to FWS-OLE, the PRU
forwarded the case findings to the agent’s Regional SAC for
administrative action.

Our review of PRU case files also found a case where the PRU
forwarded investigative findings to a Regional SAC regarding a lack of
candor violation. The PRU requested that the SAC respond to the
PRU by June 16, 2005, providing the nature and date of corrective
action taken or the rationale why no corrective action was taken.
There was no evidence of a response from the SAC in the file at the
time of our review. We were referred to the former Chief of FWS-OLE
to identify the cause for the SAC’s delayed response. The former Chief
stated that he forwarded the matter to the DOI Office of the Solicitor
for review in July 2005. As of September 2006, 18 months later, the
former Chief of FWS-OLE had not followed up with the Office of the
Solicitor to determine the status of their review.

Recommendations

 8.   FWS-OLE should ensure that measures taken to hold employees
      accountable for their actions are carried out in a timely, fair,
      and consistent manner.

 9.   FWS-OLE should create a centralized system for handling and
      tracking disciplinary action of their sworn law enforcement
      personnel.




                               14
PROPERTY ACCOUNTABILITY

Strong internal controls over property are necessary to address risks
associated with the waste, loss, and unauthorized use of assets.
Equally important is monitoring these controls to ensure they are
effective in addressing identified risks. During our assessment we
found weaknesses in the accountability of firearms, as well as controls
over investigative evidence that is converted to government property.
These weaknesses could potentially create liability problems for FWS-
OLE. Currently, FWS-OLE cannot rely on their firearms inventory
systems to provide timely and accurate information. When missing
weapons are discovered, FWS-OLE does not follow its own policy for
investigating the whereabouts of the missing weapons.

Firearms

FWS-OLE maintains an inventory of approximately 1,330 firearms
including handguns, shotguns, long rifles, and other weapons used for
undercover work. Until 2003, firearms inventories were maintained
regionally and there was no centralized system of accountability.

There are now two centralized inventory systems used by FWS-OLE in
accounting for firearms inventory: the Personal Property Management
System (PPMS) and the Law Enforcement Management Information
System (LEMIS). PPMS, which is operated and maintained by the
FWS Division of Contracting and Facilities Management (CFM), is the
Service’s official system of record for capitalized and sensitive property
including firearms. FWS-OLE also maintains its own firearms
inventory using LEMIS. Unlike PPMS, LEMIS is capable of tracking
firearms from the time of acquisition until final disposition.

Although PPMS and LEMIS were designed to account for FWS-OLE
property, FWS cannot rely on these systems to provide timely and
accurate information to account for firearms issued to their agents.
CFM updates PPMS only after it has received supporting acquisition,
transfer, and survey documentation from FWS-OLE. Delays in
receiving this supporting documentation have created a lag time in
system updates, affecting the timeliness of PPMS information. We
were told by one employee that PPMS is “always playing catch up.”

Multiple employees with access to PPMS also threatens the reliability
of information. At present, each region’s Capital Property Officer can
access the system and add, delete, or change information without the
knowledge of the system manager. CFM has no means to identify who
has entered or changed inventory information.

                                15
PPMS and LEMIS do not interface with each other, so information
from one system cannot be accessed by the other. In addition, the
firearms inventory maintained in LEMIS is unreliable because the
system is not uniformly administered from region to region. PPMS
and LEMIS are so unreliable that when we requested an inventory of
firearms, rather than provide us a listing from either of these systems,
FWS-OLE headquarters contacted each region and requested that the
SAC provide them with a current inventory listing of firearms.

In centralizing its inventory process in 2003, we were told that the
FWS-OLE Training and Inspection Branch found that their firearms
inventory was “completely unreliable” and identified 71 firearms that
were either missing, lacked supporting documentation, or were
otherwise not accounted for. Since then, the FWS-OLE Training and
Inspection Branch, in collaboration with CFM, has attributed 67 of the
potentially 71 missing firearms identified in 2003 to paperwork errors.
According to a CFM employee, the firearms inventory has improved
“110 percent” in the past year and that he would give it a “B+” grade.

Despite this improvement to the firearms inventory, senior
management failed to adequately follow up on the four remaining
missing firearms. We discovered that two of the four missing firearms
had been assigned to a former Regional SAC who left the agency in
2004. We were told there was an additional firearm attributed to this
same former SAC that had originally been purchased in 1998 but had
never been entered into the Service’s inventory systems.

As early as February 2004, at least two of the three firearms attributed
to the former SAC were reported to the FWS-OLE Chief, Deputy Chief,
and the Training and Inspections Branch SAC; however, no
investigation or other effort to recover the firearms was ever conducted
by FWS-OLE. When asked why she did not act on this issue, one
senior manager stated that property management was only one of her
many job responsibilities. This was representative of management’s
lack of urgency to recover the firearms. Any missing firearm poses a
potential risk to public safety and creates a liability for FWS-OLE.

In November 2006, after learning of the three missing firearms
attributed to the former SAC, the OIG initiated an investigation. OIG
investigators visited the former SAC to inquire about the firearms. We
were later told by an FWS-OLE official that within an hour of the OIG
investigators’ visit, the former SAC contacted FWS-OLE to make
arrangements to return the firearms. The fact that these weapons
were out of FWS-OLE custody, with senior management’s knowledge,
for nearly 3 years is unacceptable.
                                16
In addition to being unable to account for firearms contained in FWS-
OLE inventory listings, we discovered instances of firearms existing
that were not listed on an official inventory. This was true for one of
the three weapons attributed to the former SAC. We were also told
that after FWS-OLE headquarters queried each region for a current
inventory of their firearms for our assessment, one agent discovered
his firearm had never been entered into either PPMS or LEMIS.

We found weaknesses in accounting for seized firearms converted to
FWS property for undercover use during covert investigations. We
found that FWS-OLE has no policy addressing the conversion of seized
or forfeited firearms to government property. While many of these
undercover firearms are received through forfeiture or court order, and
are properly documented, others have no originating documentation.
Undocumented firearms cannot be assigned a property number or
tracked in PPMS. Without policy, undocumented firearms are not
included in inventory lists and are not assigned property numbers.

Problems with accountability for firearms are not new to FWS. In
2003, a General Accounting Office (GAO) report stated that 18 federal
agencies, including FWS, “could strengthen their controls in key areas
important for effective inventory management.” GAO specifically noted
that FWS lacked written policies and procedures in several areas,
including integrity of inventory and access to secured firearms. GAO
also found that FWS could not account for 26 firearms. In response to
this review, FWS officials identified how they would strengthen the
firearms inventory program, including conducting unscheduled
random checks of firearms and annual reviews of completed Reports of
Survey for lost and stolen firearms. We found no evidence that these
activities are occurring.

These weaknesses in accounting for firearms further emphasize the
need for a formal quality control inspection program. Periodic
independent inspections are critical to ensure that the proper
inventory controls are in place and effective.

Recommendations

 10. FWS-OLE should establish and maintain a complete and
     reliable inventory of firearms.

 11. FWS-OLE should investigate all firearms inventory
     discrepancies in a timely manner, following their own
     established policies for investigating and reporting missing
     firearm incidents.
                               17
Converting Evidence to Property

We found a lack of control over government property that was formerly
held as evidence or seized at ports of entry. Each year, FWS-OLE
acquires thousands of wildlife products that are either illegal to
possess or for other reasons cannot be returned to the owner. Most are
forwarded to the Wildlife Repository, donated, or destroyed when no
longer needed for investigative purposes. Others are maintained at
local FWS-OLE offices for educational or display purposes.

FWS-OLE has no policy addressing the conversion of evidence or
forfeited property to government ownership. Because the terms
“educational” and “display” are not defined by policy, they are open to
interpretation, resulting in varied applications. During our site visits,
we found some FWS-OLE offices had few if any wildlife displays, while
others were heavily adorned with an assortment of animal trophies,
carved ivory tusks, bird mounts, and other wildlife products. Many of
these items still have evidence tags attached, even though they are no
longer being held as such, giving the appearance that evidence is being
inappropriately handled.

Agents provided a variety of explanations for how these items are
converted to government ownership and how they could be used once
converted. We were told that the only set requirement is that the final
disposition of the property must to be entered into the LEMIS system
before the case can be closed. Often these items are placed on
indefinite loan to other agencies; however, we found that there is no
means to track this property once it is no longer in FWS-OLE’s
possession. One SAC we interviewed could not explain the process of
converting evidence or otherwise non-returnable property to FWS-OLE
ownership. When asked who makes the determination on what is kept
for educational or display purposes, he stated, “That is a good
question.” He also acknowledged that FWS-OLE should come up with
a better way of tracking educational and display items. We discovered
that another SAC took action after our site visit by instructing offices
within his region to no longer retain evidence once investigations are
closed.

Recommendation

 12. FWS-OLE should issue policy addressing the process of
     converting seized or forfeited property/evidence to FWS-OLE
     property. Policy should clearly define what is considered for
     display and educational purposes and create a uniform method
     to track and account for the property.
                               18
RESULTS OF EMPLOYEE SURVEY
We contracted with the Center for Ethical Business Cultures (CEBC),
a nonprofit organization that provides assessment, ethical leadership
development and consulting services, to develop and administer an
employee survey. The survey was designed to provide us with an in-
depth appraisal of FWS-OLE’s ethical culture (See Appendices 2 and 3
for detailed survey results). We asked 369 FWS-OLE special agents
and support staff to participate in the survey, and 325 responded; this
response rate of 88 percent was much higher than we anticipated. The
sizable response rate is beneficial for FWS-OLE management.

In analyzing the ethical culture of FWS-OLE, CEBC measured five
core elements of the organization’s culture:
         • Stakeholder Commitment
         • Mission, Vision and Values
         • Trust, Integrity and Honesty
         • Leadership
         • Process Integrity

CEBC found the results of FWS-OLE’s overall profile to be mixed. The
first three themes emerged as strengths, the leadership theme had
midrange results, and the process integrity theme clearly proved to be
an area needing improvement. As defined by CEBC, process integrity
means that an organization’s “values, mission and vision are embedded
within its culture and all of its organizational processes.”

The survey results showed that employees are confident that their
customers are satisfied with the products and services they receive.
Employees also believe that they are good environmental stewards.
Employees say that their own behaviors as well as their immediate
managers’ are consistent with the FWS-OLE mission. Most also report
that coworkers have high ethical standards and that coworkers and
immediate managers are trustworthy.

FWS-OLE employees are less positive with regard to senior
management (FWS-OLE Chief and immediate staff). Specifically,
senior leadership gets lower marks for trust and behaving in a way
that is consistent with the mission. In addition, a large proportion of
employees say that demonstrating values is not an important
consideration in employee performance ratings or promotions and that
communication is not shared freely. CEBC believes that given the
importance of trust, leadership effectiveness, and process integrity as
key ingredients in creating and sustaining ethical cultures, the
problematic scores in these areas merit sustained attention by FWS-
OLE.

                               19
RECOMMENDATIONS
                                                                  Page
Number Recommendation                                            Number
  1    FWS-OLE management should develop and execute                7
       plans to improve communication throughout the
       organization. Plans should consider periodic site visits
       by all levels of management, methods to identify and
       address employee concerns, and centralized methods for
       dissemination of agency information and policy.
  2    FWS-OLE should issue policy addressing quality control       8
       inspection standards and requirements.
  3    FWS-OLE should conduct formal quality control                8
       inspections annually and devise a plan for inspections to
       be completed at all FWS-OLE locations in the next 3
       years.
  4    FWS-OLE should create a formal leadership and               10
       management development program that values for both
       headquarters and field management experience.
  5    FWS-OLE should monitor the issuance of performance          10
       awards to ensure consistency among regions and ensure
       that new Departmental standards are followed.
  6    FWS-OLE should ensure all serious allegations are           12
       investigated by either the OIG or the PRU, or an
       appropriately trained and independent agent.
  7    FWS-OLE should ensure that the PRU is provided with         12
       an annual budget to effectively plan and provide for
       necessary investigative work.
  8    FWS-OLE should ensure that measures taken to hold           14
       employees accountable for their actions are carried out
       in a timely, fair, and consistent manner.
  9    FWS-OLE should create a centralized system for              14
       handling and tracking disciplinary action of their sworn
       law enforcement personnel.
  10   FWS-OLE should establish and maintain a complete            17
       and reliable inventory of firearms.
  11   FWS-OLE should investigate all firearms inventory           17
       discrepancies in a timely manner, following their own
       established policies for investigating and reporting
       missing firearm incidents.
  12   FWS-OLE should issue policy addressing the process of       18
       converting seized or forfeited property/evidence to FWS-
       OLE property. Policy should clearly define what are
       considered display and educational purposes and create
       a uniform method to track and account for the property.

                            20
                                                                                               APPENDIX 1


          FWS OFFICE OF LAW ENFORCEMENT FUNCTIONS



                                                      Chief



                                                  Deputy Chief




                                                                                                   Regional
 Professional         Law                                                                       Special Agents
                                             Technical &               Forensic
Responsibility    Enforcement                                                                     in Charge
                                            Field Support             Laboratory
     Unit          Operations
                                                                                                  Assistant
                                                                                                Special Agents
                                                                                                  in Charge

                                                          Law
                                                                                   Forensic
                           Investigations             Enforcement
                                                                                    Branch                  Resident
                                                      Data Systems
                                                                                                            Agents in
                                                                                                             Charge



                             Special                   Planning &             Administrative
                            Operations                  Analysis                Branch                     Supervisory
                                                                                                              Wildlife
                                                                                                            Inspectors



                             Training &                                            Technical
                            Inspections                                             Support
                                                                                                          Administrative
                                                                                                            Support




                              Wildlife
                            Inspections




                            Repository




                 *This is an abbreviated version of FWS-OLE’s January 2006 Organizational Chart.




                                                      21
                                                                                                              APPENDIX 2


                                FWS-OLE EMPLOYEE SURVEY RESULTS
                                                           NATIONAL RESULTS

                    OVERALL THEME RESULTS                                          PERCENT OF RESPONDENTS*


                            STAKEHOLDERS                                                   74%                    13%        13%


                      MISSION, VISION & VALUES                                            70%                    16%         14%


                    TRUST, INTEGRITY & HONESTY                                            69%                    16%         15%


                              LEADERSHIP                                                 61%                    25%          14%


                         PROCESS INTEGRITY                                         44%                  26%            29%


                        SAMPLE QUESTIONS                                           PERCENT OF RESPONDENTS*


Overall, customers are very satisfied with the products and services they
receive from FWS-OLE.                                                                          80%                     13%    8%


Senior management's behavior is consistent with FWS-OLE mission,
vision, and values.                                                                48%                   25%           28%


The behavior of the people I work with is consistent with FWS-OLE
mission, vision, and values.
                                                                                           75%                        19%     7%


You can trust FWS-OLE senior management.                                          42%                  24%            34%



You can trust the FWS-OLE people I work with.                                                  76%                     15%    8%


FWS-OLE senior management are more concerned about "doing the                     42%                    34%            23%
right thing" than they are about producing short-term investigative results.


                                                                                 33%             20%             46%
Communication is open in the FWS-OLE - information is freely shared.


Where I work, people do not "get ahead" unless their behavior clearly            37%                   32%             31%
demonstrates FWS-OLE values.



*Percentages will not always equal 100 percent due to rounding
differences.




                                                                            22
                                                                                              APPENDIX 3


                                     FWS-OLE EMPLOYEE SURVEY RESULTS
                                                               REGIONAL RESULTS

                                                                                    REGIONS
                 SURVEY THEMES                              NATIONAL
                                                                       1    2   3   4     5     6   7      9/HQ


                  STAKEHOLDERS


           MISSION, VISION & VALUES


         TRUST, INTEGRITY & HONESTY


                    LEADERSHIP


               PROCESS INTEGRITY


                                                                                    REGIONS
               SAMPLE QUESTIONS                             NATIONAL
                                                                       1    2   3   4     5     6   7      9/HQ

Overall, customers are very satisfied with the products
and services they receive from FWS-OLE.


Senior management's behavior is consistent with FWS-
OLE mission, vision, and values.


The behavior of the people I work with is consistent with
FWS-OLE mission, vision, and values.


You can trust FWS-OLE senior management.



You can trust the FWS-OLE people I work with.


FWS-OLE senior management are more concerned
about "doing the right thing" than they are about
producing short-term investigative results.

Communication is open in the FWS-OLE - information
is freely shared.


Where I work, people do not "get ahead" unless their
behavior clearly demonstrates FWS-OLE values.


 *Percentages will not always equal 100 percent due to rounding
 differences.




                                                                       23
                          How to Report
              Fraud, Waste, Abuse and Mismanagement

Fraud, waste, and abuse in government are the concern of everyone, Office of
Inspector General staff, departmental employees, and the general public. We
actively solicit allegations of any inefficient and wasteful practices, fraud, and abuse
related to departmental or Insular Area programs and operations. You can report
allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                         800-424-5081
              Washington Metro Area                     703-487-5435
              Fax                                       703-487-5402

Internet:     http://www.doioig.gov/form/hotlinecmp_form.php




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240

                                       www.doi.gov
                                      www.oig.doi.gov
